                    Audit of Adequacy and Compliance of
                     Disclosure Statement, Revision 14,
                          Effective January 1, 2004

                                 March 2004

                     Reference Number: 2004-1C-071




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           March 16, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Audit of Adequacy and Compliance of Disclosure Statement,
                             Revision 14, Effective January 1, 2004 (Audit #20041C0222)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s revised
       disclosure statement for its systems and services. The purpose of the examination was
       to determine whether the contractor’s revised disclosure statement, effective
       January 1, 2004, adequately describes the cost accounting practices the contractor
       proposes to use in performing Federal Government contracts and whether the revised
       practices comply with applicable Cost Accounting Standards (CAS) and Federal
       Acquisition Regulation (FAR) Part 31.
       The DCAA noted that the contractor converted to a PeopleSoft-based accounting
       system in January 2004. At this time, the DCAA is not aware of any inadequacies
       concerning this new system’s accumulation, reporting, and billing of costs on Federal
       Government contracts. However, the DCAA qualified its audit report due to limited
       compliance testing that could be performed because of the contractor’s accounting
       system conversion. According to the DCAA, future audits concerning accounting
       transactions posted subsequent to conversion of the accounting system may reveal
       instances of CAS noncompliance.
       The DCAA indicated that, except for the qualification discussed above, the subject
       revision adequately describes the contractor’s revised cost accounting practices.
       Additionally, the practices comply with applicable CAS and FAR Part 31 and are
       consistent with the contractor’s actual practices.
                                           2


The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
